                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: I-13010007                                                                     Page 1 of 1



               - We op~IJ.~d ~n invest{gition o-n t\Vocornpaniesr~ith SBIR awards 2 pursuant to a
         proactive review of SBIR awards to companies with minimal independent research and office
         facilities. 3 In this case some company persom1el also had full-time faculty or studentpositions at
         a university, 4 and one of the companies comprised a joint venture with the U.S. affiliate of a
                              5
         fiore1gn company.
               0




                 We subpoenaed information from the companies and the university. We found that the
         companies were legitimate small businesses with appropriate facilities and U.S. ownership;
         company relationships with the university, including subawards, were proper; and all company
         personnel had appropriately disclosed their relationships with the companies to the university.
         We reviewed company expenditures and found no basis for concern. The investigation revealed
         that the allegations were unsubstantiated.

                   Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
